TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Improvements Have Been Made to
                    Educate Tax-Exempt Organizations and
                    Enforce the Prohibition Against Political
                     Activities, but Further Improvements
                                  Are Possible



                                           June 18, 2008

                              Reference Number: 2008-10-117




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 18, 2008


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Improvements Have Been Made to Educate
                                Tax-Exempt Organizations and Enforce the Prohibition Against
                                Political Activities, but Further Improvements Are Possible
                                (Audit # 200710036)

 This report presents the results of our review of the Exempt Organizations (EO) function’s
 process for reviewing alleged political campaign intervention by tax-exempt organizations. The
 overall objective of this review was to assess the effectiveness of the Tax Exempt and
 Government Entities (TE/GE) Division in addressing alleged political campaign intervention by
 Internal Revenue Code Section 501(c)(3)1 organizations and to determine whether actions to date
 had detected potential repeated campaign intervention by previously identified organizations.
 This audit was requested by the former Internal Revenue Service (IRS) Commissioner and was
 conducted as part of the Treasury Inspector General for Tax Administration Office of Audit
 Fiscal Year 2008 Annual Audit Plan related to the Major Management Challenge of tax
 compliance initiatives.

 Impact on the Taxpayer
 The Political Activities Compliance Initiative (the Initiative) was implemented to educate
 tax-exempt organizations about the types of prohibited political activities and to notify
 organizations of the program implemented by the TE/GE Division to enforce this prohibition.
 The EO function increased its efforts to educate tax-exempt organizations about prohibited
 political activities and enhanced several internal processes. However, it could further improve
 its effectiveness by tracking the reasons why timeliness goals are not always met and by ensuring

 1
     Internal Revenue Code Section 501(c)(3) (2006).
                     Improvements Have Been Made to Educate Tax-Exempt
                    Organizations and Enforce the Prohibition Against Political
                        Activities, but Further Improvements Are Possible


that all employees clearly understand what should be included in the Initiative. These actions
should increase the likelihood that tax-exempt organizations will stop the prohibited activities
before the relevant election and that tax-exempt organization activities will be evaluated
consistently and fairly.

Synopsis
The TE/GE Division effectively focused on prohibited political campaign intervention by
emphasizing efforts to educate tax-exempt organizations about prohibited political activities,
improving internal processes, and setting up a program to detect tax-exempt organizations that
are potentially involved in repeated campaign intervention. For example, the Division published
a “Fact Sheet” in February 2006 with detailed examples of the types of activities the IRS
investigated during the 2004 election cycle, along with related commentary to help tax-exempt
organizations better understand what activities constitute political intervention. The EO function
also improved the 2006 Initiative by more clearly defining timeliness guidelines and procedures
for evaluating and assigning referrals for examination.
While the EO function created more detailed timeliness standards for evaluating referrals, the
TE/GE Division did not always meet the timeliness standards. As a result, tax-exempt
organizations might not be notified prior to the relevant election, thereby providing less
assurance that prohibited political activities will cease prior to the relevant election. The
EO function tracks the amount of time required to process a referral that warrants examination
for potentially prohibited activity from the date it is received to the date first contact is made
with the tax-exempt organization advising it that it might be involved in a prohibited political
activity. However, the amount of time taken to perform each individual activity was not always
tracked, which limits EO function management’s ability to pinpoint the source of processing
delays.
In addition, employees within the EO function did not always understand why certain referrals
were not included in the Initiative. Employees responsible for initially identifying and
researching referrals with alleged political intervention identified 12 referrals (in addition to the
100 referrals selected for the 2006 Initiative) that were not included in the Initiative, despite
having issues similar to referrals that were included in the Initiative. However, upon reviewing
the information, the Referral Committee responsible for fairly and impartially considering
whether referrals have examination potential decided that the referrals did not meet the criteria
for the Initiative. We believe that it is appropriate for an experienced, independent Referral
Committee to reject referrals for the Initiative under certain circumstances, and we understand
that criteria cannot be written to address every situation. However, we also believe that due to
the sensitivity of the referrals involving potentially prohibited political activities, all employees
must clearly understand what should be included in the Initiative.


                                                                                                        2
                    Improvements Have Been Made to Educate Tax-Exempt
                   Organizations and Enforce the Prohibition Against Political
                       Activities, but Further Improvements Are Possible



Recommendations
We recommended that the Director, EO, ensure that all referrals of potentially prohibited
political intervention are reviewed in a timely manner. To ensure the success of the Initiative, all
significant activities should be tracked to ensure that adequate staffing is available to meet the
EO function’s established timeliness goals. In addition, we recommended that the Director, EO,
seek to improve the consistent understanding of prohibited political intervention criteria within
the EO function.

Response
The Commissioner, TE/GE Division, agreed with our findings with respect to these issues and
has completed several corrective actions to address the recommendations in our report. These
actions include 1) continuing to monitor established timeliness goals in the 2008 Initiative,
2) modifying the timeliness goals to accommodate a new electronic case processing system,
3) continuing the policy requiring the Referral Committee to review political activity referrals on
an as-required basis, 4) starting the 2008 Initiative earlier than the 2006 Initiative to reduce
backlog, 5) reminding all personnel of the importance of the expedited time periods, and
6) training 30 additional agents on the Initiative to increase the TE/GE Division’s ability to
handle caseload in a timely manner. In addition, Division management ensured that all
employees involved in the 2008 Initiative received the same training on political campaign
intervention by Internal Revenue Code Section 501(c)(3) organizations and instituted a process
for the Referral Committee to provide feedback to the EO Classification function staff
concerning why a referral was not selected for the Initiative.
The Commissioner, TE/GE Division, also provided perspective on how the Division processes
referrals of potentially prohibited political activities by tax-exempt organizations.
Management’s complete response to the draft report is included as Appendix IV.

Office of Audit Comment
The Commissioner, TE/GE Division, provided alternate corrective actions for our
recommendation to ensure that all referrals of potentially prohibited political intervention are
reviewed in a timely manner. Actions such as training additional personnel to handle the
caseload and starting the Initiative earlier in the year could help the IRS to better meet its
timeliness goals. We agree with the alternate corrective actions and suggest that Division
management continue to monitor timeliness goals and take additional actions if referrals are not
processed in a timely manner.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
                                                                                                   3
                   Improvements Have Been Made to Educate Tax-Exempt
                  Organizations and Enforce the Prohibition Against Political
                      Activities, but Further Improvements Are Possible


Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                        4
                           Improvements Have Been Made to Educate Tax-Exempt
                          Organizations and Enforce the Prohibition Against Political
                              Activities, but Further Improvements Are Possible




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Educational Activities Were Enhanced and Procedures Were Improved.....Page 4
          Improving Selected Processes Could Assist in Meeting Timeliness Goals
          and Improve the Understanding of Referral Criteria ....................................Page 6
                    Recommendation 1:........................................................Page 9

                    Recommendation 2:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Management’s Response to the Draft Report ......................Page 15
         Improvements Have Been Made to Educate Tax-Exempt
        Organizations and Enforce the Prohibition Against Political
            Activities, but Further Improvements Are Possible




                      Abbreviations

EO              Exempt Organizations
IRS             Internal Revenue Service
TE/GE           Tax Exempt and Government Entities
                       Improvements Have Been Made to Educate Tax-Exempt
                      Organizations and Enforce the Prohibition Against Political
                          Activities, but Further Improvements Are Possible




                                             Background

Organizations that are exempt from Federal income taxes under Internal Revenue Code
Section 501(c)(3)1 are prohibited from directly or indirectly participating or intervening in any
political campaign on behalf of, or in opposition to, any candidate for public office. The
prohibition applies to campaigns at the Federal, State, and local levels. Charities, educational
institutions, and religious organizations, including churches, are covered by this prohibition.
As a result, these organizations are prohibited from endorsing candidates, making campaign
donations, engaging in fundraising, distributing statements, or becoming involved in any other
activities that may be beneficial or detrimental to any particular candidate. For example,
allowing a candidate to use an organization’s assets or facilities would violate the prohibition if
other candidates are not given the same opportunity to use the organization’s assets or facilities.
Activities that encourage people to vote for or against a particular candidate on the basis of
partisan criteria are also prohibited.
Referrals concerning potentially prohibited activities are received in the Exempt Organizations
(EO) Classification function, where employees research the issue presented in each referral by
gathering supporting evidence. This evidence is then provided to an independent, experienced
group of EO function employees, known as the Referral Committee.2 The Committee considers
the referral and supporting evidence and decides whether the referral warrants an examination.
Referrals that the Committee determines warrant examination are forwarded to an
EO Examination function group that notifies the tax-exempt organization that it will be
investigated for potentially prohibited political activity.
The prohibition against political activities for charities and churches has existed since the
1954 revision of the Internal Revenue Code. However, in the 2004 election cycle, the Internal
Revenue Service (IRS) recognized that referrals of potential political intervention by charities
and churches were increasing. In response, the IRS initiated a Political Activities Compliance
Initiative (the Initiative) in June 2004. The Initiative expanded on the IRS’ prior educational
efforts to remind tax-exempt organizations about the prohibition against political activities and
the consequences of violating the prohibition. The IRS also enhanced its enforcement program
to move quickly on specific, credible referrals of prohibited activities by expediting the
processing of referrals to more quickly notify tax-exempt organizations when the IRS was



1
  Internal Revenue Code Section 501(c)(3) (2006).
2
  The Referral Committee is comprised of three members who are experienced EO function technical employees
(e.g., senior examiners, function specialists, group managers, or area managers). The Committee’s responsibility is
to fairly and impartially consider whether information items referred have examination potential.
                                                                                                            Page 1
                          Improvements Have Been Made to Educate Tax-Exempt
                         Organizations and Enforce the Prohibition Against Political
                             Activities, but Further Improvements Are Possible



 reviewing potentially prohibited political activities. The enforcement program will also
 determine:
 •   Whether the organization participated in prohibited political activities.
 •   The remedies for organizations that are determined to have participated in prohibited political
     activities. Remedies could include revocation of tax-exempt status.
 In November 2004, we commenced a review of the Initiative at the requests of the
 IRS Commissioner and the Commissioner, Tax Exempt and Government Entities (TE/GE)
 Division. The audit was limited to an assessment of the process for reviewing referrals and did
 not assess the results of examinations or determine whether the activities by the tax-exempt
 organizations involved potentially prohibited political activity. We reported in February 2005
 that the TE/GE Division handled referrals of potential political campaign intervention
 consistently, but the referrals were not always processed in a timely manner.3
 After the completion of our previous audit, the EO Examination function continued to work the
 examinations of potentially prohibited political activity as part of the 2004 Initiative. As shown
 in Figure 1, IRS results from the 2004 Initiative substantiated that tax-exempt organizations were
 engaging in prohibited political activity.
                                  Figure 1: Results of 2004 Initiative

 IRS Examination                Action Taken by              Number of Cases             Percentage of Cases
 Results                        the IRS

 Prohibited Political           Written Advisory
 Activities Identified          Sent to Tax-Exempt                   71                           65%
                                Organization
                                Tax-Exempt Status                     5                            5%
                                Revoked
 No Prohibited Political        Closing Letter Issued
 Activities Identified          to Tax-Exempt                        29                           26%
                                Organization
 Pending                        Pending                               5                            5%
 Total Examination Cases                                             110                         100%
                                                                          4
Source: IRS political activity campaign database as of January 25, 2008.



 3
   Review of the Exempt Organizations Function Process for Reviewing Alleged Political Campaign Intervention by
 Tax Exempt Organizations (Reference Number 2005-10-035, dated February 2005).
 4
   We did not verify the information provided by the EO function. Percentages might not add up to 100 percent due
 to rounding.
                                                                                                          Page 2
                    Improvements Have Been Made to Educate Tax-Exempt
                   Organizations and Enforce the Prohibition Against Political
                       Activities, but Further Improvements Are Possible



Because a high number of the organizations examined in the 2004 Initiative were found to have
engaged in prohibited political activity, the TE/GE Division enhanced the process to expedite the
processing of potentially prohibited political activity referrals for the 2006 election cycle in an
attempt to stop prohibited activities before the relevant election. In addition, Division
management anticipates a vigorous 2008 election cycle and has pledged in media reports to
follow up on all referrals judged worthy of pursuit.
This review was performed at the National Headquarters of the TE/GE Division in
Washington, D.C.; the EO Examination function in Dallas, Texas; and the EO Examination field
office in Independence, Ohio, during the period July 2007 through January 2008. Similar to our
previous audit, we did not assess the results of examinations or determine whether the activities
by the tax-exempt organizations involved potentially prohibited political activity.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                            Page 3
                      Improvements Have Been Made to Educate Tax-Exempt
                     Organizations and Enforce the Prohibition Against Political
                         Activities, but Further Improvements Are Possible




                                    Results of Review

The TE/GE Division effectively focused on prohibited political campaign intervention by
emphasizing efforts to educate tax-exempt organizations about prohibited political activities,
improving internal processes, and setting up a program to detect tax-exempt organizations that
are potentially involved in repeated campaign intervention. While educational efforts and
streamlined processes enabled the IRS to make substantial improvements to the Initiative, the
IRS could make further enhancements by having data readily available to pinpoint the reasons
why timeliness goals are not always met and by ensuring that all employees clearly understand
what should be included in the Initiative.

Educational Activities Were Enhanced and Procedures Were
Improved
The TE/GE Division has enhanced its efforts to educate tax-exempt organizations (specifically
charities and churches) about prohibited political activities, including the enforcement
consequences of engaging in these types of activities. The Division effectively accomplished
this since our last report in February 2005 by completing the following activities:5
•   Publishing the results of the 2004 Initiative in February 2006. Because the 2004 election
    cycle involved the EO function’s first formal Initiative to address prohibited political
    activity, this was the first time the public had been provided with a detailed report including
    specific instances of alleged and confirmed political intervention, lessons learned from
    performing the examinations, the methodology for selecting the cases for the Initiative, and
    planned actions for the Initiative to move forward. The results revealed that approximately
    70 percent of tax-exempt organizations examined in the 2004 Initiative engaged in some
    level of prohibited political activity.
•   Publishing a “Fact Sheet” in February 2006. While the IRS has issued Fact Sheets in the past
    concerning prohibited political activities, this Fact Sheet included detailed examples of the
    types of activities the IRS investigated during the 2004 election cycle, along with related
    commentary to help tax-exempt organizations better understand what activities constitute
    political intervention. The document also reflected the IRS’ interpretation of tax laws
    enacted by Congress, as well as Department of the Treasury regulations and court decisions.



5
 Review of the Exempt Organizations Function Process for Reviewing Alleged Political Campaign Intervention by
Tax Exempt Organizations (Reference Number 2005-10-035, dated February 2005).

                                                                                                       Page 4
                     Improvements Have Been Made to Educate Tax-Exempt
                    Organizations and Enforce the Prohibition Against Political
                        Activities, but Further Improvements Are Possible



•   Publishing another Fact Sheet in February 2008 to provide an
    explanation of the IRS referral process for complaints alleging              Educating tax-exempt
    abuse of an organization’s tax-exempt status, including                  organizations about political
    complaints alleging prohibited political activities. When               activity prohibitions is a priority
    reviewing referrals, the IRS follows special procedures to                     for the EO function.
    assure the public of its objectivity in the treatment of
    tax-exempt organizations.
•   Publishing a new Revenue Ruling in June 2007. While the IRS has previously issued
    revenue rulings concerning prohibited political activities, this Ruling enhanced education
    efforts by providing 21 examples that illustrate the application of the facts and circumstances
    to be considered when determining whether a tax-exempt organization participated or
    intervened in any political campaign.
•   Increasing the frequency of press releases, newsletters, and educational efforts covering
    prohibited political activities by tax-exempt organizations to reach out to tax-exempt
    organizations that might be unaware of the prohibition. Included in this effort were
    nine newsletters distributed since the issuance of our last report on the 2004 Initiative,
    several workshops focusing on small to mid-size tax-exempt organizations, and presentations
    at six IRS tax forums in both Calendar Years 2006 and 2007.
•   Sponsoring a video program for the first time on the IRS web site that included IRS
    subject-matter experts explaining the political campaign intervention rules that apply to
    tax-exempt organizations. In addition, the IRS initiated a telephone forum to answer
    questions regarding the prohibition against political campaign activity by tax-exempt
    organizations.
•   Updating a webpage on the IRS web site specific to political campaign intervention. With
    the increased focus on educational activities, this webpage provides one place where
    taxpayers and tax-exempt organizations can obtain press releases, revenue rulings, tax law,
    Initiative reports for 2004 and 2006, and other educational postings.
•   Anticipating the potential for an increase in prohibited political activities by starting the
    Initiative earlier in the election year. For example, the EO function started the 2006 Initiative
    in March, which was 3 months earlier than the 2004 Initiative. In anticipation of the
    potential for an increase in activities as a result of the presidential election, the 2008 Initiative
    was moved up even further to January 1, 2008.
The EO function also improved the 2006 Initiative by more clearly defining timeliness
guidelines and procedures for evaluating and assigning referrals for examination. Employees
assigned to evaluate referrals follow specific timeliness goals that were created to enable the
TE/GE Division to quickly initiate contact with the tax-exempt organization advising it that it
might be involved in prohibited political activity. Other process improvements included:

                                                                                                  Page 5
                          Improvements Have Been Made to Educate Tax-Exempt
                         Organizations and Enforce the Prohibition Against Political
                             Activities, but Further Improvements Are Possible



Improving data collected on timeliness could help the EO function meet its
timeliness goals
The EO function created more detailed timeliness standards for evaluating referrals (e.g., it set
specific timeliness goals for EO Classification function employees to process referrals and for
EO Examination function employees to establish contact with tax-exempt organizations).
However, it did not always meet the timeliness standards. As a result, tax-exempt organizations
might not be notified prior to the relevant election, thereby providing less assurance that
prohibited political activities will cease prior to the relevant election.
Referrals were not always researched in a timely manner and
evaluated for examination potential by employees in the
                                                                           Referrals were not always
EO Classification function. In addition, referrals were not directed    reviewed in a timely manner for
in a timely manner to employees responsible for contacting the               examination potential.
organization and conducting the examination in the
EO Examination function groups. Overall, 63 of the 100 referrals
selected for examination in the 2006 Initiative were not processed in a timely manner using the
established expedited process. As noted in Figure 2, about 20 percent of the cases missed the
IRS’ expedited timeliness goals by more than 30 calendar days.
                     Figure 2: Referral Processing Time for the 2006 Initiative
                                           Referrals         Timeliness         Timeliness     Timeliness
                                          That Missed       Goals Missed       Goals Missed   Goals Missed
                                              the            by Fewer           by Between      by More
                                           Expedited           Than               16 and         Than
                           Referrals       Timeliness       16 Calendar        30 Calendar    30 Calendar
                           Reviewed          Goals             Days                Days          Days
        Referrals
        Involving              43               30                 7                  8           15
        Churches
        Referrals
        Involving              57               33                 19                 8            6
        Charities
        Total
        Initiative            100               63                 26                 16          21
        Referrals
       Source: Analysis of the EO function’s timeliness reports for the 2006 Initiative.7

The EO function tracks the amount of time required to process a referral that warrants
examination for potentially prohibited activity from the date it is received in the

7
    We did not verify the accuracy of this information.
                                                                                                        Page 7
                    Improvements Have Been Made to Educate Tax-Exempt
                   Organizations and Enforce the Prohibition Against Political
                       Activities, but Further Improvements Are Possible



EO Classification function to the date first contact is made with the tax-exempt organization
advising it that it might be involved in a prohibited political activity. The amount of time taken
by the various segments of the EO function, such as Classification, EO Counsel (for church
referrals), and the Examination groups, is also separately tracked.
However, the amount of time taken to perform each individual activity within the
EO Classification function was not always tracked, which limits EO function management’s
ability to pinpoint the source of processing delays. In addition, the EO function has not set
specific timeliness goals for each activity in the Classification function. Individually tracking the
amount of time it takes to 1) research and build a case for the Referral Committee to review,
2) determine if an examination is warranted, and 3) assign a referral to an EO Examination
function group would enable EO function management to better identify and remedy bottlenecks
in the processing of referrals.
After the 2006 election cycle, the EO function analyzed the referrals to assess delays by
reviewing referrals involving churches included in the 2006 Initiative and concluded that the
referrals generally did not meet processing time standards due to backlogs in the EO
Classification and Examination functions. The primary reasons for the delays included 1) having
insufficient staff to work referrals in the Classification function due to scheduled vacation time
and 2) the EO function not always applying the time standards for expediting Initiative referrals
because some Examination groups had become saturated with cases identified from the referrals.
The Director, EO, advised us that the decision to not track individual activities was purposeful so
that the EO Classification function would have greater flexibility for prioritizing the work.
However, having additional data to determine where bottlenecks might be occurring would
provide the EO function with information needed to adapt to increasing receipts by ensuring that
appropriate staffing is available to meet established timeliness goals.

Improving communication among different employees involved in processing
referrals would increase understanding of referral criteria
While the EO function enhanced its efforts to educate tax-exempt
organizations about prohibited political activities by providing
examples of prohibited activities and through other educational                Criteria used to evaluate
activities, employees within the EO function did not always                   referrals were interpreted
                                                                            differently among employees
understand why certain referrals were not included in the                       within the EO function.
Initiative. Employees responsible for initially identifying and
researching referrals of alleged political intervention identified
12 referrals (in addition to the 100 referrals selected for the
2006 Initiative) that were not included in the Initiative, despite having issues similar to referrals
that were included in the Initiative. Upon reviewing the information, the Referral Committee
decided the referrals did not meet the criteria for the Initiative. However, the Referral
Committee determined that the referrals needed to be examined and used its discretion to

                                                                                              Page 8
                        Improvements Have Been Made to Educate Tax-Exempt
                       Organizations and Enforce the Prohibition Against Political
                           Activities, but Further Improvements Are Possible



forward the referrals for examination outside of the Initiative. Examinations conducted outside
the Initiative are not subject to expedited time standards and are not given priority over
non-Initiative cases. In addition, examiners may use their discretion to close non-Initiative cases
without conducting the examination due to other priority work.
We reviewed copies of the 12 referral files and concluded that there were indications of
prohibited political activity,8 but we did not make a determination as to whether the referrals
should have been included in the Initiative. We believe that it is appropriate for an experienced,
independent Referral Committee to reject referrals for inclusion in the Initiative under certain
circumstances, and we understand that criteria cannot be written to address every situation.
However, we also believe that sound management practices dictate that due to the sensitivity of
the referrals involving potentially prohibited political activities, all employees must be aware of
and clearly understand criteria for determining what referrals should be included in the Initiative.
One reason this might have occurred is that not all employees received the specialized training
for the 2006 Initiative. In addition, EO function employees who provide cases to the Referral
Committee might not receive adequate feedback in the case file when a case is rejected for the
Initiative. Providing the same training to all employees involved in the Initiative and ensuring
adequate feedback from the Committee as to why a referral is not selected would clarify what
constitutes prohibited political activity and provide better assurance that all organizations
potentially involved in prohibited political activities are being treated consistently and fairly.

Recommendations
The Director, EO, should:
Recommendation 1: Ensure that all referrals of potentially prohibited political activities are
evaluated in a timely manner by:
    •    Tracking the timeliness of all significant activities associated with the processing of
         referrals.
    •    Analyzing collected data to ensure that appropriate staffing is available to meet
         established timeliness goals.
         Management’s Response: TE/GE Division management agreed with the finding,
         and they have completed several corrective actions to address this recommendation. The
         Division analyzed the timeliness data in the 2006 Initiative to determine whether the
         timeliness goals should be modified but believed that any further sub-division of these
         goals, particularly in the Classification stage, would impede its flexibility in meeting

8
  We determined that there were indications of potentially prohibited political activities by comparing the referrals to
the 2006 Fact Sheet, applicable revenue rulings, EO function Initiative training documents, and EO function
educational materials.
                                                                                                               Page 9
                    Improvements Have Been Made to Educate Tax-Exempt
                   Organizations and Enforce the Prohibition Against Political
                       Activities, but Further Improvements Are Possible



       these goals. Division management plans to maintain the same goals as those employed in
       the 2006 Initiative, with one modification as noted in the first bullet below. The Division
       will, however, continue to monitor its timeliness goals in the 2008 Initiative.
       Management has taken the following actions to improve the Division’s ability to meet the
       timeliness goals:
       •   Modified the timeliness goals by adding 2 days for a group manager to assign a case
           to an agent, to accommodate the new electronic case processing system.
       •   Required the Referral Committee to continue meeting on an as-required basis to
           review referrals concerning political campaign intervention during the period between
           the 2006 and 2008 cycles.
       •   Started the 2008 Initiative earlier than the 2006 Initiative to reduce backlog.
       •   Reminded all personnel about the importance of the expedited time periods via email
           and in monthly conference calls.
       •   Trained an additional 30 agents on the Initiative to increase the Division’s ability to
           handle its caseload in a timely fashion.
       Office of Audit Comment: The Commissioner, TE/GE Division, provided alternate
       corrective actions for our recommendation to ensure that all referrals of potentially
       prohibited political intervention are reviewed in a timely manner. Actions such as
       training additional personnel to handle the caseload and starting the Initiative earlier in
       the year could help the IRS to better meet its timeliness goals. We agree with the
       alternate corrective actions and suggest that Division management continue to monitor
       timeliness goals and take additional actions if referrals are not processed in a timely
       manner.
Recommendation 2: Seek to improve the consistent understanding of prohibited political
intervention criteria within the EO function by ensuring that:
   •   All employees involved in the Initiative receive the same training.
   •   Adequate feedback is provided by the Referral Committee to those who research the
       referrals when the Committee rejects cases for the Initiative.
       Management’s Response: TE/GE Division management agreed with this
       recommendation and has implemented corrective actions. All employees involved in
       the 2008 Initiative, including the members of the Referral Committee, received the
       same training on political campaign intervention by Internal Revenue Code
       Section 501(c)(3) organizations. In addition, Division management instituted a process
       for the Referral Committee to provide feedback to the EO Classification function staff
       concerning why a referral was not selected for the Initiative.

                                                                                             Page 10
                      Improvements Have Been Made to Educate Tax-Exempt
                     Organizations and Enforce the Prohibition Against Political
                         Activities, but Further Improvements Are Possible



                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness of the TE/GE Division
in addressing alleged political campaign intervention by Internal Revenue Code
Section 501(c)(3)1 organizations and to determine whether actions to date had detected potential
repeated campaign intervention by previously identified organizations. To accomplish this
objective, we:
I.      Reviewed actions taken by TE/GE Division management since our February 2005 report2
        to educate Section 501(c)(3) organizations about their responsibilities related to political
        activities.
        A. Interviewed EO function management to determine whether any education and
           outreach efforts were taken related to political activity.
        B. Obtained any press releases, letters, or other correspondence/documentation issued by
           the TE/GE Division to assess the adequacy of management’s corrective actions to
           recommendations made in our prior report.
        C. Interviewed EO function management to determine current plans for the
           2008 election year and whether any changes in the process will be made based on the
           results of the Political Activities Compliance Initiative (the Initiative).
II.     Evaluated the process established by TE/GE Division management during the
        2006 election year for reviewing referrals of political campaign intervention, addressing
        any noncompliance identified in the area, and capturing accurate and complete results for
        the Initiative.
        A. Interviewed Division management to determine the process established to review
           referrals of political campaign intervention during the 2006 election year.
        B. Obtained any procedures or documentation related to the revamping of the existing
           process for receiving and reviewing referrals of political campaign intervention to
           assess the adequacy of management’s corrective actions to recommendations made in
           our prior report.



1
 Internal Revenue Code Section 501(c)(3) (2006).
2
 Review of the Exempt Organizations Function Process for Reviewing Alleged Political Campaign Intervention by
Tax Exempt Organizations (Reference Number 2005-10-035, dated February 2005).
                                                                                                     Page 11
                    Improvements Have Been Made to Educate Tax-Exempt
                   Organizations and Enforce the Prohibition Against Political
                       Activities, but Further Improvements Are Possible



       C. Evaluated processes for capturing Initiative results and assessed whether all referrals
          were included in the Initiative’s results.
       D. Reviewed cases identified as potentially not being captured in the Initiative and
          assessed whether they contained indications of prohibited political activity.
III.   Assessed actions taken to address the untimeliness of processing referrals reported in the
       2006 Initiative results.
IV.    Determined whether EO function actions to date have detected repeat potential political
       campaign intervention by Section 501(c)(3) organizations.
       A. Interviewed EO function management to determine actions taken since the issuance
          of our prior report to identify repeat allegations of political intervention by
          Section 501(c)(3) organizations.
       B. Obtained any procedures or documentation related to identifying and addressing
          repeat allegations of political campaign intervention by Section 501(c)(3)
          organizations.
       C. Reviewed the results of any actions taken since the issuance of our prior report to
          determine whether any repeat allegations of political campaign intervention have
          been identified and addressed.

Data validation methodology
We obtained an extract of the EO function’s referral database. Validations performed included
ensuring that only appropriate data were included in each field and that the time period for the
data met our requirements. We determined that the data were sufficiently reliable for our use.

Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our objective: the EO function’s policies,
procedures, and practices for planning, managing, and monitoring the Initiative. We evaluated
these controls by interviewing management, reviewing applicable information, and analyzing
referrals with potential political activity.




                                                                                          Page 12
                   Improvements Have Been Made to Educate Tax-Exempt
                  Organizations and Enforce the Prohibition Against Political
                      Activities, but Further Improvements Are Possible



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Troy D. Paterson, Director
James V. Westcott, Audit Manager
Theresa M. Berube, Lead Auditor
Marjorie A. Stephenson, Senior Auditor
Donald J. Martineau, Auditor




                                                                                    Page 13
                  Improvements Have Been Made to Educate Tax-Exempt
                 Organizations and Enforce the Prohibition Against Political
                     Activities, but Further Improvements Are Possible



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 14
      Improvements Have Been Made to Educate Tax-Exempt
     Organizations and Enforce the Prohibition Against Political
         Activities, but Further Improvements Are Possible



                                                      Appendix IV

Management’s Response to the Draft Report




                                                             Page 15
 Improvements Have Been Made to Educate Tax-Exempt
Organizations and Enforce the Prohibition Against Political
    Activities, but Further Improvements Are Possible




                                                        Page 16
 Improvements Have Been Made to Educate Tax-Exempt
Organizations and Enforce the Prohibition Against Political
    Activities, but Further Improvements Are Possible




                                                        Page 17
 Improvements Have Been Made to Educate Tax-Exempt
Organizations and Enforce the Prohibition Against Political
    Activities, but Further Improvements Are Possible




                                                        Page 18
